APPENDIX
APPENDIX A: Order Directing Response, United States District Court for the
Southern District of Iowa, 4:18-cv-00333-RGE, October 22, 2018 ............................ 21
APPENDIX B: Order Denying Writ of Habeas Corpus Under 28 U.S.C. § 2241 and
Dismissing Case, United States District Court for the Southern District of Iowa,
4:18-cv-00333-RGE, May 29, 2019 .............................................................................. 25
APPENDIX C: Judgment in a Civil Case, United States District Court for the
Southern District of Iowa, 4:18-cv-00333-RGE, May 30, 2019 .................................. 37
APPENDIX D: Wiseman v. Wachendorf, Warden; Federal Bureau of Prisons,192392, (8th Cir.) (direct civil appeal) opinion entered January 5, 2021 ...................... 38
APPENDIX E: Wiseman v. Wachendorf, Warden; Federal Bureau of Prisons,192392, (8th Cir.) (direct civil appeal) judgment entered January 5, 2021 .................. 47
APPENDIX F: Wiseman v. Wachendorf, Warden; Federal Bureau of Prisons,192392, (8th Cir.) (direct civil appeal) Order denying petition for rehearing entered
March 12, 2021 ............................................................................................................ 48

Case 4:18-cv-00333-RGE Document 4 Filed 10/22/18 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
LONNIE RAY WISEMAN,
Petitioner,
No. 4:18-cv-00333-RGE

v.

ORDER DIRECTING RESPONSE

PATTI WACHTENDORF and FEDERAL
BUREAU OF PRISONS,
Respondent.

Petitioner Lonnie Ray Wiseman brings this habeas petition under 28 U.S.C. § 2241.
ECF No. 1. He is currently incarcerated at the Iowa State Penitentiary, id. at 2, and asserts the
Bureau of Prisons has not properly calculated time served on his federal sentence. Id. at 7.
I.

BACKGROUND
In the 1990’s, Wiseman was charged with multiple crimes throughout Arkansas, Idaho,

New Mexico, Kentucky, and Indiana. Id. at 7–9. After being convicted in Arkansas and sentenced
to 360 months in prison, id. at 7, Wiseman was sent to Idaho, id., and then to New Mexico to face
federal charges there. Id. at 8. Wiseman was convicted in New Mexico in 1997 and sentenced to
595 months1 in federal prison. Id. at 9.
Wiseman was sent to USP Beaumont in Beaumont, Texas, to begin serving his federal
sentence on September 11, 1997. Id. On October 27, 1997, Wiseman was transferred back to
Arkansas to begin serving that state sentence. Id.
It is unclear when, but at some point he was transferred to the Iowa State Penitentiary in
Fort Madison, Iowa, where he currently resides. Id. at 2 (“Petitioner is currently in the custody of

1

This sentence was reduced in 2002 to 535 months. Id. at 4.
APPENDIX A

App. 21

Case 4:18-cv-00333-RGE Document 4 Filed 10/22/18 Page 2 of 4

Warden Patti Wachtendorf at the Iowa State Penitentiary in Fort Madison, Iowa.”). He brings this
petition under 28 U.S.C. § 2241 alleging his “federal sentence should be calculated as having
begun with his designation and transfer to USP Beaumont on September 11, 1997, and as having
run continuously since then until now and until its completion.” Id. at 7.
II.

STANDARD OF REVIEW
A challenge to the execution of a federal sentence is proper under 28 U.S.C. § 2241,

and should be brought in the district where the defendant is currently held. Matheny v. Morrison,
307 F.3d 709, 711 (8th Cir. 2002) (“A petitioner may attack the execution of his sentence
through § 2241 in the district where he is incarcerated.”).
A federal defendant may seek judicial review of the computation of their credits
by the Bureau after exhausting all administrative remedies with the Bureau of Prisons.

Mathena v. United States, 577 F.3d 943, 946 (8th Cir. 2009) (dismissing § 2241 challenge to
execution of federal sentence because petitioner “failed to exhaust his administrative remedies
within the Bureau of Prisons.”). Wiseman alleges he has exhausted his administrative remedies.
Pet.’s Ex. 1 at 45–52, ECF No. 1-1.
III.

DISCUSSION
The Court takes judicial notice that Wiseman raised this issue in a Motion to Vacate,

Set Aside, or Correct Sentence under 28 U.S.C. § 2255 in the United States District Court for New
Mexico. See Mem. Op. & Order, Wiseman v. United States, No. 1:16-cv-00700-JAP-KRS
(D.N.M. July 27, 2018), ECF No. 34. There, the New Mexico federal district court recognized the
similarities between Wiseman’s situation and the movant in Weekes v. Fleming, 301 F.3d 1175
(10th Cir. 2002). Id. at 23.

2
App. 22

Case 4:18-cv-00333-RGE Document 4 Filed 10/22/18 Page 3 of 4

In Weekes, a federal inmate appealed the dismissal of his habeas corpus petition
under 28 U.S.C. § 2241, in which he had argued that he was entitled to credit on
his federal sentence for time spent in state custody because his federal sentence had
commenced prior to his erroneous transfer to state authorities. The United States
had primary custody of the inmate at the time the federal sentence was imposed,
and had designated him as a federal prisoner before it prematurely returned him to
state custody, where he served a state sentence that was intended to run
consecutively to the federal sentence. Consequently, the Tenth Circuit Court of
Appeals held that he must be given credit toward the remainder of the federal
sentence for the time in state custody because the federal sentence had already
begun and could not be interrupted unless through the fault of the prisoner.

Id. at 23 (internal citations omitted).
The federal court in New Mexico recognized the claim should be brought as a § 2241
motion in the district where Wiseman was confined, id. at 2324, and that neither Weekes nor the
Tenth Circuit law regarding the statute of limitations “will bind the judges in the Southern District
of Iowa.” Id. at 25.
IV.

SUMMARY AND ORDERS
For the foregoing reasons, the United States Bureau of Prisons shall show cause why the

writ should not be granted. See 28 U.S.C. § 2243. The complicated factual pattern here constitutes
good cause for extending the time for Respondent to respond. See id. The response of the
Bureau of Prisons is due twenty days from the date of this order.
Based on his application, the Court grants Wiseman’s motion for leave to proceed
in forma pauperis, ECF No. 3.
Wiseman also requests the appointment of counsel to assist him in presenting his claim.
ECF No. 2. “District courts may appoint indigent habeas petitioners counsel in the interests of
justice.” Martin v. Fayram, 849 F.3d 691, 699 (8th Cir. 2017) (citing 18 U.S.C. § 3006A(a)(2)(B)).
Factors to consider are whether the petitioner has presented a meritorious claim, the legal and

3
App. 23

Case 4:18-cv-00333-RGE Document 4 Filed 10/22/18 Page 4 of 4

factual complexity of the claim, as well as the petitioner’s ability to investigate and present the
claim. Id.
Wiseman has thoroughly presented his claim to this Court, and no additional factual
discovery will be necessary to resolve the issue. According to the federal Court in New Mexico,
Wiseman currently has access to a law library at the Iowa State Penitentiary which has a
LEXIS CD database kept current every 90 days. See Mem. Op. & Order 17, Wiseman,
No. 1:16-cv-00700-JAP-KR, ECF No. 34. With that access, he will be able to research the law in
this Circuit. The appointment of counsel is not necessary in order to meet the interests of justice.
The motion for counsel, ECF No. 2, is denied without prejudice to the Court revisiting
the issue if circumstances change.
IT IS SO ORDERED.
Dated this 22nd day of October, 2018.

4
App. 24

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
LONNIE WISEMAN,
No. 4:18-cv-00333-RGE

Petitioner,

ORDER DENYING WRIT OF
HABEAS CORPUS
UNDER 28 U.S.C. § 2241
AND DISMISSING CASE

v.
PATTI WACHTENDORF and
FEDERAL BUREAU OF PRISONS,
Respondent.

Petitioner Lonnie Wiseman brings this habeas petition under 28 U.S.C. § 2241. ECF No. 1.
He is currently incarcerated at the Iowa State Penitentiary, id. at 2, and contends the Bureau of Prisons
is not properly calculating time served on his federal sentence. Id. at 7. For the following reasons, the
Court finds Wiseman is not entitled to relief.
I.

STANDARD OF REVIEW
A challenge to the execution of a federal sentence is proper under 28 U.S.C. § 2241 and should

be brought in the district where the defendant is currently held. Matheny v. Morrison, 307 F.3d 709,
711 (8th Cir. 2002) (“A petitioner may attack the execution of his sentence through § 2241 in the
district where he is incarcerated.”). Wiseman is currently held at the Iowa State Penitentiary in
Fort Madison, Iowa. ECF No. 1 at 2. Fort Madison is located in Lee County, Iowa, which is in the
Southern District of Iowa. 28 U.S.C. § 95(b)(2) (listing Lee County in the Eastern Division of
Southern District of Iowa).
A federal defendant may seek judicial review of the Bureau’s sentencing computation
decisions after exhausting all administrative remedies. Mathena v. United States, 577 F.3d 943, 946
(8th Cir. 2009) (dismissing § 2241 challenge to execution of federal sentence because petitioner
“failed to exhaust his administrative remedies within the Bureau of Prisons”). Wiseman alleges he

APPENDIX B

App. 25

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 2 of 12

has exhausted his administrative remedies. Pet.’s Ex. 45–52, ECF No. 1-1. The Government does not
assert any procedural defects to prevent the Court from reviewing the claims.
II.

BACKGROUND
In 1994, Wiseman was convicted on state charges in Idaho. Decl. of Robin Teters ¶ 3,

ECF No. 9-16. Wiseman was serving his sentence in a state detention facility in Idaho. Id. ¶¶ 3−4.
Wiseman and a federal prisoner held in the Idaho facility escaped in September 1995. Id. ¶ 4.
Over the course of the next two months, the pair committed multiple armed robberies throughout
New Mexico and Arkansas. Id.
Wiseman was arrested in Arkansas in November 1995 on Arkansas state charges. Id. ¶ 6.
He pleaded guilty and was sentenced to 360 months of imprisonment in Arkansas state court.
ECF No. 1 at 7.
After his Arkansas sentencing, Wiseman was arrested on a federal indictment from the
District of Idaho alleging aiding and abetting a federal prisoner to escape based on his escape from
the Idaho facility. ECF No. 9-16 ¶ 9. The United States District Court for the Western District
of Arkansas held a hearing under Federal Rule of Criminal Procedure 40. Id. Under this rule,
“[w]here any offender . . . is committed in any district other than that where the offense is to be tried,
it shall be the duty of the judge of the district where such offender . . . is imprisoned, seasonably to
issue, and of the marshal to execute, a warrant for his removal to the district where the trial is to be
had.” Fed. R. Crim. P. 40, Advisory Committee Note to 1944 Adoption. Following the hearing, the
United States Marshals Service took custody of Wiseman pursuant to a writ of habeas corpus ad
prosequendum and transported him to federal court in Idaho in May 1996. ECF No. 9-16 ¶ 9.
In August 1996, Wiseman pleaded guilty to the escape charge in the United States District
Court for Idaho. ECF No. 1 at 8. The Idaho federal court sentenced Wiseman to twelve months in
2
App. 26

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 3 of 12

prison, to run concurrent with the Arkansas state sentence. ECF No. 9-16 ¶ 10. Wiseman finished
serving this sentence on July 31, 1997. Id.
In February 1996, Wiseman was indicted in the United States District Court for the
District of New Mexico based on armed robberies committed in 1995 in that district. Id. ¶ 7.
In September 1996, while Wiseman was still serving his sentence on the Idaho escape charge, he
was transferred to the District of New Mexico to be tried on those charges. Id. ¶ 11. The United States
Marshals Service also lodged a detainer based on the one-year imprisonment sentence from the
District of Idaho. Id. ¶ 11.
A jury convicted Wiseman in the United States District Court for the District of New Mexico.
J. 1, United States v. Wiseman, 1:96CR00072-002 (D.N.M. Sept. 9, 1997). 1 Wiseman was sentenced
to 595 months in prison.2 Id. at 2.
Following the New Mexico sentencing, the Bureau of Prisons assigned Wiseman to the
United States Penitentiary in Beaumont, Texas. ECF No. 9-16 ¶ 13. He arrived at Beaumont on
September 16, 1997. Id. Within two weeks, the Bureau of Prisons recognized Wiseman should
have been returned to Arkansas instead of assigned to a federal facility. Id. On October 22, 1997,
the Bureau returned Wiseman to Arkansas to finish serving his state sentence. Id. ¶ 14. The federal
judgment from the District of New Mexico was then lodged as a detainer with the State of Arkansas.

Id.

This information is also found at Attachment 9 of Respondent Bureau of Prison’s Response to Order
to Show Cause, ECF No. 9-9.
2 This term was later reduced to 535 months in prison. Pet.’s Reply ¶ 9, ECF No. 10.
1

3
App. 27

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 4 of 12

III.

DISCUSSION
In general, a federal term of imprisonment begins when “the defendant is received in

custody awaiting transportation to” the detention facility where the sentence will be served.
18 U.S.C. § 3585(a). This is true when the United States has primary jurisdiction of a prisoner
but “not when the United States merely takes physical custody of a prisoner who is subject to
another sovereign’s primary jurisdiction.” Elwell v. Fisher, 716 F.3d 477, 481 (8th Cir. 2013)
(citing United States v. Hayes, 535 F.3d 907, 909−10 (8th Cir. 2008)). Primary jurisdiction is
vested in the sovereign that initially arrested the defendant and continues until the priority is
relinquished in some way, such as release on bail, dismissal of charges, parole, or the expiration
of the sentence. Id.; see also United States v. Cole, 416 F.3d 894, 897 (8th Cir. 2005) (“As between
the state and federal sovereigns, primary jurisdiction over a person is generally determined by which
one first obtains custody of, or arrests, the person.”).
Transferring a defendant from state to federal custody pursuant to a writ of habeas corpus
ad prosequendum does not change who has primary custody. Munz v. Michael, 28 F.3d 795, 798
(8th Cir. 1994) (holding writ of habeas corpus ad prosequendum does not alter a defendant’s
custody status). Instead, the inmate is “considered to be ‘on loan’” from the primary jurisdiction.

Cole, 416 F.3d at 896−97.
Arkansas was the first sovereign to arrest Wiseman after his escape from Idaho and the
commission of crimes in multiple jurisdictions. ECF No. 1 at 13. Wiseman was transferred from
Arkansas to federal custody in Idaho subject to a writ of habeas corpus ad prosequendum and after a
hearing under Federal Rule of Criminal Procedure 40. Id.; ECF No. 1-1 at 1−4. Wiseman agrees
Arkansas originally had primary jurisdiction of his person. ECF No. 1 at 13.

4
App. 28

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 5 of 12

Wiseman argues Arkansas ceded primary jurisdiction to the federal government, however,
when he was allowed to remain in Idaho or when he was transferred to the District of New Mexico
instead of returning to Arkansas to serve his state sentence. Id. at 13−14. Wiseman further contends
his federal sentence began to run when he was designated to Beaumont in 1997 and has
“run continuously since then until now and until its completion.” ECF No. 1 at 7. For the following
reasons, the Court rejects Wiseman’s argument.
First, Wiseman argues the writ of habeas corpus ad prosequendum allowed federal custody of
him for only as long as reasonably necessary to conclude the Idaho charges. Id. at 14. He asserts
Arkansas forfeited primary custody because he was not immediately returned to Arkansas following
the imposition of the Idaho federal sentence. Id.
The sentence imposed by the Idaho federal court ran “concurrent with Defendant’s
imprisonment pursuant to the Judgment in Docket Number CR96-8, Washington County,
Arkansas Circuit Court.” J. 2, United States v. Wiseman, 1:95-cr-00080-BLW-2 (D. Id. Aug. 2, 1996),
ECF No. 34. 3 The sentence acknowledged the existing Arkansas state sentence; the federal sentence
was not intended to extinguish the Arkansas’s primary jurisdiction.
Moreover, Wiseman did not stay in federal custody merely to serve his Idaho federal sentence.
Rather, the twelve-month sentence expired while he was still in temporary custody of the
United States Marshals Service due to the pending charges in the United States District Court for the
District of New Mexico. ECF No. 9-16 ¶ 10. Thus, the federal government did not keep Wiseman
longer than necessary after he was sentenced in Idaho federal court.

3

This information is also found at ECF No. 9-6 at 2.
5
App. 29

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 6 of 12

Second, Wiseman argues his transfer to New Mexico without any Rule 40 hearing or writ of
habeas corpus ad prosequendum is further support for his position that Arkansas no longer had
primary custody over him. ECF No. 10 ¶ 2. At the time of the transfer, Wiseman was in the custody
of the United States Marshals Service. Although no writ was used, the United States Attorney for the
District of New Mexico made a written request to the Bureau of Prisons to have Wiseman transferred
from the District of Idaho to the District of New Mexico. Id. ¶ 1. This was a transfer within federal
custody. Id.; see also 18 U.S.C. § 3621(d) (“The United States marshal shall, without charge, bring a
prisoner into court or return him to a prison facility on order of a court of the United States or on
written request of an attorney for the Government.”). As Wiseman was already in the custody of the
United States Marshals Service, transfer between federal districts could be accomplished via written
request of the Assistant United States Attorney, regardless of whether Arkansas maintained primary
custody. See United States v. Harris, No. 8:12-cr-205-T-17MAP, 2016 WL 11469176, at *6
(M.D. Fla. Apr. 7, 2016) (finding where defendant was already in federal custody, “the
prosecutor simply needed to arrange [the defendant’s] presence before this Court to answer to
the indictment . . . [a]nd the prosecutor’s § 3621(d) request to the marshal, which served much like a
writ of habeas corpus ad prosequendum, accomplished that”), adopted by United States v. Villanueva,
2016 WL 3344227 (M.D. Fla. June 13, 2016). Thus, once the federal government originally
“borrowed” Wiseman from Arkansas, it did not need to apply for another writ of habeas corpus ad
prosequendum from Arkansas before transferring Wiseman to a different federal district.
Third, Wiseman argues even though the language of the federal sentence imposed in
New Mexico does not state the sentence should run concurrent to the Arkansas state sentence,
this is the only conclusion one can draw based on the record made at the sentencing proceeding.
ECF No. 10 ¶ 4. During sentencing, the federal judge made a rough calculation as to how old Wiseman

6
App. 30

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 7 of 12

would be at the end of his sentence. Id. Wiseman argues because the judge made the computation
assuming Wiseman’s sentence would begin immediately, then “it is clear” the sentencing court
intended to impose the federal sentence concurrent to the state sentence. Id.
Generally, where the federal sentence is silent regarding concurrent or consecutive service
to another sentence, the presumption is made in favor of imposing a consecutive sentence.
18 U.S.C. § 3584 (“Multiple terms of imprisonment imposed at different times run consecutively
unless the court orders that the terms are to run concurrently.”). The sentencing judge mentioned in
passing the length of Wiseman’s sentence, and rhetorically questioned how old Wiseman would be
at the expiration of the federal sentence. ECF 1-1 at 42−43. When viewed in the accurate context,
nothing indicates the judge meant for the statement to guide whether the sentence was to run
concurrently with the Arkansas state sentence. Nor could it be considered an official calculation
of Wiseman’s sentence because it is the responsibility of the Bureau of Prisons to establish
when a sentence begins and whether any sentencing credit applies. See United States v. Wilson,
503 U.S. 329, 335 (1992) (“After a district court sentences a federal offender, the Attorney General,
through the BOP, has the responsibility for administering the sentence.”); United States v. Tindall,
455 F.3d 885, 888 (8th Cir. 2006) (holding district court’s determination of date is irrelevant
because “[t]he Bureau of Prisons is responsible for computing the sentence credit after the
defendant has begun serving his sentence”).
Fourth, Wiseman contends when he arrived in New Mexico, his attorney told him Arkansas
had waived primary custody because his sentence was expected to be of significant duration.
ECF No. 1 at 8. Wiseman asserts he would have accepted a guilty plea for fifteen years on the
New Mexico federal charges if he had known the state and federal sentences ran consecutively.
ECF No. 10 ¶ 6. Counsel’s alleged representations to Wiseman are, at most, grounds for an
7
App. 31

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 8 of 12

ineffective assistance of counsel claim under a motion to vacate, set aside, or correct sentence
pursuant to 28 U.S.C. § 2255. See Tinajero-Ortiz v. United States, 635 F.3d 1100, 1101
(8th Cir. 2011) (recognizing § 2255 claim where trial counsel alleged to have misled defendant about
time he would serve in prison). Other than this self-serving statement, no evidence exists to
demonstrate Arkansas intended to relinquish primary custody of Wiseman. 4
Fifth, Wiseman contends “the federal government chose to designate the state of Arkansas as
the place for service of the federal sentence” when Forest Kelly, a representative of the Bureau of
Prisons, transferred Wiseman to Arkansas after recognizing the mistake. ECF No. 1 at 18.
Kelly’s letter unequivocally recognizes primary jurisdiction was in Arkansas. ECF No. 9-11 at 2
(“Given the available information, it appears the primary jurisdiction of Mr. Wiseman lies with the
state of Arkansas; therefore, I am taking the necessary action to ensure he is returned to state
custody.”) Kelly was not designating Arkansas as the location for Wiseman to serve his sentence.
Finally, Wiseman argues once he is imprisoned, his sentence should be served continuously
and not in installments. ECF No. 1 at 12 (citing United States v. Melody, 863 F.2d 499, 504
(7th Cir. 1988)). In support of his position, Wiseman likens his case to Weekes v. Fleming,
301 F.3d 1175 (10th Cir. 2002). ECF No. 1 at 17.
In Weekes, a federal inmate claimed he was being forced to serve his federal sentence in
installments between time spent in state custody. 301 F.3d at 1176. Weekes was sentenced to
probation on state charges when two days later, he was charged with additional state offenses
in another county. Id. at 1177. While he was waiting for a hearing on his probation violation charge

Wiseman also contends the detainers filed by the states of Kentucky and Indiana with the federal
government further support his argument that primary custody was held by the federal sovereign and
not Arkansas. ECF No. 1 at 8–9. Whether other states lodge detainers with the correct sovereign has
no bearing on whether Arkansas intended to relinquish primary custody.

4

8
App. 32

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 9 of 12

for the first set of state charges, a federal indictment was issued for Weekes. Id. At that time, the
United States Marshals Service arrested him and took him into federal custody. Id.
While in federal custody, the second set of state charges were dismissed, and the state filed
a writ of habeas corpus ad prosequendum for Weekes to appear at his state probation violation
hearing related to the first set of state charges. Id. The state court resentenced Weekes to a term
which ran concurrent with any federal court sentence imposed based on the same charge. Id.
Weekes returned to federal custody where he plead guilty and was sentenced to prison. Id.
The Bureau of Prisons designated Weekes to serve at a federal facility. Id. Soon after his arrival,
the Bureau of Prisons realized Weekes had not yet served the state sentence for probation violation
and was returned to the state facility. Id. at 1177–1178. After his state sentence was complete,
the Bureau of Prisons refused to credit Weekes on his federal sentence with any time served in the
state facility. Id. at 1178.
The United States Court of Appeals for the Tenth Circuit ruled in favor of Weekes, finding
nothing in the record to show the state retained primary custody. Id. at 1181. Rather, it found the state
allowed the federal government “to take exclusive physical custody of Mr. Weekes without presenting
either a written request for temporary custody or a writ of habeas corpus ad prosequendum.” Id.
Additionally, the state used a habeas corpus ad prosequendum to regain custody of Weekes,
“indicating its consent to change of custody by its request for Mr. Weekes’ ‘loan.’” Id. Given these
circumstances, the Court of Appeals held Weekes must be given credit toward the remainder of the
federal sentence for the time in state custody. Id.
Although Weekes, like this case, involved the transfer of an inmate between state and
federal custody, the Court agrees with the Government that the fact pattern here is more similar to

Binford v. United States, 436 F.3d 1252 (10th Cir. 2006). In Binford, the defendant was being

9
App. 33

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 10 of 12

held on state charges when he was charged on a new federal complaint. Id. at 1253. The state
released Binford to the federal authorities pursuant to a writ of habeas corpus ad prosequendum. Id.
Binford remained in federal custody while the federal charges proceeded and remained in temporary
detention until the outcome of the pending state charges was determined. Id. After Binford was
sentenced on his federal charge, however, the United States Marshals Service mistakenly transferred
him to a federal facility instead of returning him to state custody. Id. Prison staff promptly recognized
the mistake and returned Binford to state authorities. Id.
The key difference between Weekes and Binford is which jurisdiction used the habeas
corpus ad prosequendum to gain custody over the defendant. In Weekes, the federal government
used no formal process to “borrow” the defendant from the state court; the state “borrowed”
Weekes to sentence him on the state charges. 301 F.3d at 1181. In Binford, the federal
government used a writ of habeas corpus ad prosequendum to obtain temporary jurisdiction over
the defendant. 436 F.3d at 1253. Likewise, the District of Idaho used a writ to obtain temporary
custody of Wiseman from Arkansas. In doing so, it demonstrated the federal government believed its
custody jurisdiction to be secondary to that of Arkansas. Further, the fact that the federal judgment
from the United States District Court for the District of New Mexico was lodged as a detainer with
the State of Arkansas is further evidence that Arkansas intended to maintain primary jurisdiction over
Wiseman. ECF No. 9-16 ¶ 14. Unlike Weekes, there is no evidence here to demonstrate Arkansas
ever relinquished primary custody of Wiseman.
The federal government does not dispute it mistakenly transferred Wiseman to a federal
facility instead of returning him to state custody following the imposition of the New Mexico
federal sentence. See ECF No. 9-11 at 2. Nonetheless, the inadvertent transfer was discovered
within weeks, and Wiseman’s overall incarceration was not extended. See Binford, 436 F.3d at 1256

10
App. 34

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 11 of 12

(“the continuous service rule is not a ‘get out of jail early card’ for prisoners’”);

see also Yeary v. Masters, No. 1:14-19114, 2016 WL 5852865, at *4 (S.D.W.Va. Sept. 30, 2016)
(“numerous courts have concluded that an erroneous designation to a federal facility does not,
in and of itself, operate as a transfer of the state’s primary jurisdiction to federal authorities”
(collecting cases)).
In summary, Arkansas never relinquished primary jurisdiction over Wiseman. His federal
sentence will begin to run when he has completed his sentence in Arkansas. He is not entitled
to relief here.
III.

Motion for Appropriate Relief
A respondent has twenty-three days to respond to an order to show cause on a § 2241 petition.

28 U.S.C. § 2243 (“It shall be returned within three days unless for good cause additional time,
not exceeding twenty days, is allowed.”). In this case, the Bureau of Prisons requested additional
time to gather information and provide a response to the Court. Resp.’s Mot. 1, ECF No. 6.
The Court granted the extension of time. Order, ECF No. 7. Wiseman moves for “appropriate relief”
because the Bureau of Prisons failed to respond to the § 2241 petition within the time prescribed by
28 U.S.C. § 2243. ECF No. 8.
The Rules Governing Section 2254 cases encompass all habeas cases, including those brought
under § 2241. See Rule 1(b) of Rules Governing § 2254 Cases in the United States District Courts
(“The district court may apply any or all of these rules to a habeas corpus petition not covered by
Rule 1(a).”). The Advisory Committee Notes to Rule 4 make clear “the court is accorded greater
flexibility than under § 2243 in determining within what time period an answer must be made.”
Rule 4 of Rules Governing Section 2254 Cases, Advisory Committee Note to the 1976 Adoption.
Rule 4 does not require any set time response, giving the Court “discretion to take into account various

11
App. 35

Case 4:18-cv-00333-RGE Document 11 Filed 05/29/19 Page 12 of 12

factors such as the respondent’s workload and the availability of transcripts before determining a time
within which an answer must be made.” Id.; see also Maniar v. Warden Pine Prairie Corr. Ctr.,
No. 6:18-CV-00544 SEC P, 2018 WL 4869383, at *1 (W.D. La. May 2, 2018) (“It is well settled that
the strict time limit prescribed by § 2243 is subordinate to the Court’s discretionary authority to set
deadlines under Rule 4 of the Rules Governing § 2254 Cases.” (collecting cases)); White v. Jett,
No. 10-501 (JRT/JSM), 2010 WL 5421480, at *8 (D. Minn. Nov. 18, 2010) (“In light of the time that
it takes the Government to obtain the necessary materials to respond to and draft a meaningful
response to a habeas petition, the District of Minnesota has adopted the practice of automatically
providing Respondents 30 days to respond to a habeas petition.”), adopted by 2010 WL 5421475
(D. Minn. Dec. 23, 2010).
Wiseman is not unfairly prejudiced by the extra time allowed the Bureau of Prisons to
submit its response. The Bureau did not assert any procedural defenses, and the Court ruled on the
merits of the application. Wiseman’s “Motion for Appropriate Relief,” ECF No. 8, is denied.
IV.

SUMMARY AND ORDERS
IT IS ORDERED that Petitioner Lonnie Wiseman’s Petition for Writ of Habeas Corpus

Under 28 U.S.C. § 2241, ECF No. 1, is DENIED. 5 This case is dismissed.
IT IS FURTHER ORDERED that Petitioner Lonnie Wiseman’s Motion for Appropriate
Relief, ECF No. 8, is DENIED.
IT IS SO ORDERED.
Dated this 29th day of May, 2019.

The Antiterrorism and Effective Death Penalty Act’s certificate of appealability requirement does
not apply in § 2241 cases. Langella v. Anderson, 612 F.3d 938, 939 n.2 (8th Cir. 2010).
5

12
App. 36

Case 4:18-cv-00333-RGE Document 12 Filed 05/30/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA

JUDGMENT IN A CIVIL CASE
LONNIE WISEMAN,

CASE NO.: 4:18-cv-00333
Petitioner,
v.

PATTI WACHTENDORF and
FEDERAL BUREAU OF PRISONS,
Respondent.

______ JURY VERDICT . This action came before the Court for trial by jury. The issues
have been tried and the jury has rendered its verdict.

✔ DECISION BY COURT. This action came before the Court. The matter has been fully
______
submitted and a decision has been rendered.

IT IS ORDERED AND ADJUDGED:
Petitioner's Petition for Writ of Habeas Corpus Under 28 U.S.C. § 2241, is denied. This
case is dismissed.

Date: May 30, 2019
Clerk, U.S. District Court
_______________________________
By: Deputy Clerk

APPENDIX C

App. 37

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-2393
___________________________
Lonnie Ray Wiseman,
lllllllllllllllllllllPetitioner - Appellant,
v.
Patti Wachendorf, Warden; Federal Bureau of Prisons,
lllllllllllllllllllllRespondents - Appellees.
____________
Appeal from United States District Court
for the Southern District of Iowa - Des Moines
____________
Submitted: September 24, 2020
Filed: January 5, 2021
____________
Before COLLOTON, GRUENDER, and GRASZ, Circuit Judges.
____________
COLLOTON, Circuit Judge.
This appeal concerns a dispute over how to credit time served by a prisoner.
Lonnie Wiseman is an inmate at the Iowa State Penitentiary. Under a prisoner
transfer arrangement, he is serving a thirty-year sentence imposed in Arkansas state
court in 1996. After Wiseman was sentenced in Arkansas, the federal government
APPENDIX D

Appellate Case: 19-2393

Page: 1

App. 38
Date Filed: 01/05/2021 Entry ID: 4990784

prosecuted him for offenses committed before his incarceration, and a federal court
in New Mexico sentenced him in September 1997 to a term of 595 months’
imprisonment. The federal government briefly assigned Wiseman to a federal prison,
but then concluded that he should have been returned to Arkansas and transferred him
back there in October 1997.
Wiseman maintains that his federal sentence began to run once he was
sentenced to 595 months in the federal case and transferred to the federal prison. On
that theory, he brought a petition for writ of habeas corpus alleging that time served
since September 1997 on his Arkansas sentence should also be credited against his
federal sentence. The government contends that the 595-month federal term of
imprisonment has not yet commenced, and that it will not begin to run until Wiseman
finishes serving his Arkansas state sentence. The district court1 ruled that Arkansas
retained “primary jurisdiction” over Wiseman during the entire period, and granted
judgment for the government. Wiseman appeals, and we affirm.
I.
The saga begins in 1995, when Wiseman was serving an Idaho state sentence
and escaped from a detention facility with another man who was a federal detainee.
After his escape, Wiseman committed several armed robberies in New Mexico and
Arkansas. In November 1995, a state trooper in Arkansas arrested Wiseman on a
state charge of aggravated robbery. Wiseman pleaded guilty, and the Arkansas state
court sentenced him to 360 months’ imprisonment. Wiseman began to serve that term
on April 9, 1996.

1

The Honorable Rebecca Goodgame Ebinger, United States District Judge for
the Southern District of Iowa.
-2-

Appellate Case: 19-2393

Page: 2

App. 39
Date Filed: 01/05/2021 Entry ID: 4990784

On April 18, 1996, federal authorities took custody of Wiseman for the purpose
of prosecuting him in Idaho on federal charges of aiding and abetting a federal
prisoner to escape. The district court found that the government obtained custody
pursuant to a writ of habeas corpus ad prosequendum—that is, a federal court order
that demanded Wiseman’s presence in federal court on a particular date. On the same
day that the United States Marshal in Arkansas took custody of Wiseman, he
appeared before a federal magistrate judge in the Western District of Arkansas. The
court, citing Federal Rule of Criminal Procedure 40 concerning commitment of an
arrestee to another district, ordered the Marshal to transfer Wiseman to the custody
of the United States Marshal for the District of Idaho. Once in Idaho, Wiseman
pleaded guilty to the escape charge, and the district court sentenced Wiseman to 12
months’ imprisonment to run concurrently with his state sentence.
After the sentencing in Idaho, the Marshals Service transferred Wiseman to the
District of New Mexico for prosecution on federal charges of robbery affecting
interstate commerce and use of a firearm during a crime of violence. A jury found
Wiseman guilty, and the district court sentenced him to 595 months’ imprisonment
on September 9, 1997.
The Marshals Service then transported Wiseman to a federal prison in
Beaumont, Texas. By October 1, 1997, however, a staff member at the Bureau of
Prisons determined that Wiseman’s incarceration at Beaumont was a mistake, and
acted to ensure that Wiseman was returned to state custody. The staff member wrote
to the Marshals Service that Wiseman was inadvertently designated to the facility in
Beaumont, and that “primary jurisdiction of Mr. Wiseman lies with the state of
Arkansas.” As a result, the Marshals Service removed Wiseman from the federal
facility on October 7, and he arrived back in Arkansas on October 22, 1997.

-3-

Appellate Case: 19-2393

Page: 3

App. 40
Date Filed: 01/05/2021 Entry ID: 4990784

II.
Under the “doctrine of primary jurisdiction,” a prisoner serving a term in state
custody generally begins to serve a federal sentence when the United States assumes
primary jurisdiction over the prisoner and the prisoner is presented to serve his
federal sentence. Elwell v. Fisher, 716 F.3d 477, 481 (8th Cir. 2013); see also 18
U.S.C. § 3585(a). A federal sentence does not commence, however, “when the
United States merely takes physical custody of a prisoner who is subject to another
sovereign’s primary jurisdiction.” Elwell, 716 F.3d at 481. The first sovereign to
establish physical custody over a criminal defendant retains primary jurisdiction until
it releases jurisdiction. Id.
Not every change in custody constitutes a release of primary jurisdiction.
When a State with primary jurisdiction transfers a prisoner to the United States
pursuant to a writ of habeas corpus ad prosequendum, for example, the prisoner is
considered merely “on loan” from the State. Id. at 481-82; see also Binford v. United
States, 436 F.3d 1252, 1255-56 (10th Cir. 2006). The key question is whether the
first sovereign intended to relinquish its primary jurisdiction. See Johnson v. Gill,
883 F.3d 756, 765 (9th Cir. 2018).
Wiseman acknowledges that Arkansas obtained primary jurisdiction over him
when state authorities arrested him on charges of aggravated robbery in 1995. He
contends, however, that the State relinquished primary jurisdiction when it transferred
him into the custody of the United States Marshal in April 1996 for prosecution on
the federal escape charge in Idaho. For the first time on appeal, Wiseman asserts that
the State did not transfer him to the United States based on a writ, but rather “waived”
primary jurisdiction when it voluntarily released him into the custody of federal
authorities.

-4-

Appellate Case: 19-2393

Page: 4

App. 41
Date Filed: 01/05/2021 Entry ID: 4990784

The district court found that the State transferred custody pursuant to a writ of
habeas corpus ad prosequendum, and this finding is not clearly erroneous. See Fed.
R. Civ. P. 52(a)(6); Aponte-Dávila v. Mun. of Caguas, 828 F.3d 40, 46 (1st Cir.
2016). Wiseman’s pro se complaint pleaded, under penalty of perjury, that on April
18, 1996, a hearing was held in federal court “on a Writ of Habeas Corpus Ad
Prosequendum.” R. Doc. 1, at 7. Wiseman acknowledged that the State was
“presented with the Writ of Habeas Corpus Ad Prosequendum requesting custody for
charges pending in the District of Idaho,” id. at 13, and admitted that “the federal
government gained temporary custody pursuant to a writ of habeas corpus ad
prosequendum for the purpose of his prosecution in the District of Idaho.” Id. at 17.
The government presented a declaration from a management analyst at the Bureau of
Prisons, who averred that Wiseman was taken into federal custody “pursuant to a Writ
of Habeas Corpus Ad prosequendum.” R. Doc. 9-16, at 3. Wiseman also attached
to his complaint a custody report from the United States Marshals Service with a
remark reflecting that he was released to Washington County, Arkansas, on October
22, 1997, in accordance with such a writ. R. Doc. 1-1, at 8.2
Wiseman suggests two reasons why the district court erred in finding that
custody was transferred under a writ. Even assuming that Wiseman did not waive
these arguments by pleading to the contrary, the cited reasons do not establish clear
error. First, Wiseman suggests that the fact of a hearing under Federal Rule of
Criminal Procedure 40, which then applied to arrests under a warrant issued in
another federal district, is inconsistent with the federal government assuming custody
based on a writ of habeas corpus ad prosequendum. Although the procedure under

2

The Marshals Service report lists Wiseman’s “custody status” as “RLWHCAP” on October 22, 1997, with a remark stating “RL TO WASHINGTON CO.”
R. Doc. 1-1, at 8. WHCAP stands for writ of habeas corpus ad prosequendum, Cain
v. Menifee, 269 F. App’x 420, 424 n.4 (5th Cir. 2008), and it is undisputed that
Wiseman was released to Washington County, Arkansas, on the date specified.
-5-

Appellate Case: 19-2393

Page: 5

App. 42
Date Filed: 01/05/2021 Entry ID: 4990784

Rule 40 need not be followed when a State turns over a prisoner to the United States
based on a writ, prisoners sometimes assert that they are entitled to a hearing
nonetheless. E.g., United States v. Sawyers, 963 F.2d 157, 162 (8th Cir. 1992);
Bandy v. United States, 408 F.2d 518, 521 (8th Cir. 1969); Terlikowski v. United
States, 379 F.2d 501, 506-07 (8th Cir. 1967). That the government and the district
court in Arkansas may have convened an unnecessary hearing regarding Wiseman’s
transfer from one federal district to another does not undermine the district court’s
finding that Arkansas surrendered custody to the federal government based on a writ.
Second, Wiseman cites a 1997 letter from the Bureau of Prisons that says Arkansas
authorities “released Mr. Wiseman to federal authorities” in April 1996. But the letter
does not address one way or the other whether the State “released” Wiseman pursuant
to a writ, and the district court did not clearly err in finding based on Wiseman’s
admissions and other evidence that a writ existed.
Because the writ itself does not appear in the record, Wiseman urges based on
Weekes v. Fleming, 301 F.3d 1175 (10th Cir. 2002), that we should order the
government to produce the document. In Weekes, however, the prisoner “vigorously
contended” in the district court that no writ of habeas corpus ad prosequendum was
issued, and the district court failed to address the question. Id. at 1178-79. Under
those circumstances, the court of appeals asked the United States to produce a writ,
and the government was unable to do so. Id. at 1179. Here, by contrast, Wiseman did
not dispute the existence of a writ, and alleged that his custody was transferred
pursuant to a writ of habeas corpus ad prosequendum. This court is not the proper
forum for evidentiary proceedings, and the district court was not required to order
production of the writ when Wiseman and the Bureau of Prisons agreed that a writ
had been issued.

-6-

Appellate Case: 19-2393

Page: 6

App. 43
Date Filed: 01/05/2021 Entry ID: 4990784

Wiseman next argues that even with transfer of custody under a writ of habeas
corpus ad prosequendum, Arkansas relinquished primary jurisdiction. He contends
that the federal government’s act of transferring him between federal districts in
Idaho and New Mexico, and the lengthy period of eighteen months that he spent in
federal custody, show that the United States assumed primary jurisdiction.
Wiseman was in federal custody while he was prosecuted under separate
indictments in two different judicial districts. When a prisoner is subject to multiple
prosecutions, the federal government’s movement of the prisoner within its
jurisdiction, while he is “on loan” from a State, does not show an assumption of
primary jurisdiction by the United States. In this case, after the federal prosecutions
were concluded, the Marshals Service mistakenly transferred Wiseman to a federal
penitentiary. But the government identified the error within three weeks and
promptly returned Wiseman to Arkansas. The federal government’s mistaken
retention of custody does not constitute an assumption of primary jurisdiction where
the State never intended to relinquish jurisdiction and the error was quickly rectified.
See Binford, 436 F.3d at 1256. Nor does the fact that Wiseman was “on loan” for
eighteen months in order to resolve two federal prosecutions in different districts
justify concluding that Arkansas gave up primary jurisdiction. See Rios v. Wiley, 201
F.3d 257, 274 (3d Cir. 2000).
Wiseman last asserts that because other jurisdictions filed detainers with the
United States, the federal government must have assumed primary jurisdiction over
him. A detainer, however, does not alter the custody status of a prisoner, Thomas v.
Whalen, 962 F.2d 358, 360-61 (4th Cir. 1992); it “merely puts the officials of the
institution in which the prisoner is incarcerated on notice that the prisoner is wanted
in another jurisdiction for trial upon his release from prison.” United States v. Mauro,
436 U.S. 340, 358 (1978). That certain jurisdictions with charges pending against
Wiseman notified the United States that Wiseman was wanted in those jurisdictions
does not bear on whether Arkansas intended to relinquish primary jurisdiction over
-7-

Appellate Case: 19-2393

Page: 7

App. 44
Date Filed: 01/05/2021 Entry ID: 4990784

Wiseman. Wiseman argues that Arkansas also filed a detainer with the federal
government, but the record shows that the United States lodged a detainer with
Arkansas after Wiseman was returned to state custody. R. Doc. 1-1, at 6; R. Doc. 9-8,
at 1; R. Doc. 9-16, at 5. That action is consistent with Arkansas’s maintenance of
primary jurisdiction over the prisoner.
For these reasons, we conclude that Wiseman is not entitled to credit against
his federal sentence.
III.
Wiseman also argues that the district court erred by denying his motion for
appointment of counsel. A district court may appoint counsel for a habeas petitioner
if it “determines that the interests of justice so require.” 18 U.S.C. § 3006A(a)(2)(B).
In exercising its discretion, the court “should consider the legal complexity of the
case, the factual complexity of the case, and the petitioner’s ability to investigate and
present his claims, along with any other relevant factors.” Hoggard v. Purkett, 29
F.3d 469, 471 (8th Cir. 1994). We review the court’s decision for abuse of discretion.
Martin v. Fayram, 849 F.3d 691, 699 (8th Cir. 2017).
The district court denied Wiseman’s request for counsel, explaining that
Wiseman had “thoroughly presented his claim to [the] Court, and no additional
factual discovery [was] necessary to resolve the issue.” The court also observed that
Wiseman enjoyed access to a law library with a database that was updated every
ninety days.
Wiseman now contends that the legal and factual issues were complex, and
maintains that appointed counsel “could have investigated” and “cleared up any
confusion” about whether a writ of habeas corpus ad prosequendum was issued in
1996. As the case was presented to the district court, however, the parties agreed that
-8-

Appellate Case: 19-2393

Page: 8

App. 45
Date Filed: 01/05/2021 Entry ID: 4990784

a writ was issued, and there was no reason for the district court to believe that
complex factual investigation was required. Nor were the legal issues so complex as
to require appointment of counsel. The district court identified and analyzed the
relevant doctrine and leading authorities before rendering a decision, and legal issues
are subject to de novo review on appeal.
*

*

*

The judgment of the district court is affirmed.
______________________________

-9-

Appellate Case: 19-2393

Page: 9

App. 46
Date Filed: 01/05/2021 Entry ID: 4990784

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-2393
___________________
Lonnie Ray Wiseman
Petitioner - Appellant
v.
Patti Wachendorf, Warden; Federal Bureau of Prisons
Respondents - Appellees
______________________________________________________________________________
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:18-cv-00333-RGE)
______________________________________________________________________________
JUDGMENT

Before COLLOTON, GRUENDER and GRASZ, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
January 05, 2021

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-2393

Page: 1

APPENDIX E

App. 47
Date Filed: 01/05/2021 Entry ID: 4990787

012345ÿ738347ÿ9 0 3ÿ ÿ8 487ÿ
ÿ34ÿ423ÿ92 9023ÿ

3/12/2021

ÿÿ
ÿ
ÿÿ!"#ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ$%%&&'ÿ
ÿ
()ÿ
ÿ
*''ÿ!+,-./0ÿ!.-ÿ-ÿ1-.&ÿ23.3ÿ/ÿ*.""ÿ
ÿ
ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ$%%&&"ÿ

ÿ
ÿ
444444444444444444444444444444444444444444444444444444444444444444444444444444ÿÿ
$%%&ÿ/.#ÿ5)6)ÿ7"'.+'ÿ83.'ÿ/.ÿ',ÿ63',.ÿ7"'.+'ÿ/ÿ9:ÿÿ7"ÿ;"ÿ
<=>+(??@ABÿ
444444444444444444444444444444444444444444444444444444444444444444444444444444ÿÿ
54 ÿ
ÿ
ÿ C,ÿ%''ÿ/.ÿ.,.DÿÿE+ÿ"ÿ--)ÿC,ÿ%''ÿ/.ÿ.,.DÿEÿ',ÿ%&ÿ"ÿ
&"ÿ--)ÿÿ
ÿ ÿ ÿ ÿ ÿ ÿ ÿ ;.+,ÿ0ÿ?ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
F.-.ÿA'.-ÿ'ÿ',ÿ7.+'ÿ/ÿ',ÿ83.'ÿÿ
8&.G0ÿ5)6)ÿ83.'ÿ/ÿ$%%&"0ÿAD,',ÿ8.+3')ÿÿ
444444444444444444444444444444444444ÿÿ
ÿ ÿÿÿÿÿÿÿH"Hÿ;+,&ÿA)ÿ@"ÿÿ

APPENDIX F

IJJKLLMNKÿPMQKRÿSTUVWTWÿÿÿÿÿXMYKRÿSÿÿÿÿÿÿZMNKÿ[\LK]Rÿ^W_SV_V^VSÿ̀aNbcÿdZRÿe^SApp.
WfVgÿ48

